HHS/OIG-Audit-"Audit of University of California At Los Angeles Medical Center's Organ Acquisition Costs Claimed
For The Period July 1, 1998 Through June 30, 1999,"(A-09-03-00048)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of University of California At Los Angeles Medical Center's Organ Acquisition Costs Claimed For The Period
July 1, 1998 Through June 30, 1999," (A-09-03-00048)
July 30, 2004
Complete
Text of Report is available in PDF format (199 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether organ acquisition costs claimed by UCLA Medical Center on its fiscal
year 1999 Medicare Part A cost report for its kidney, liver, and heart transplant programs were allowable.  The Medical
Center did not comply with Medicare law, regulations, and guidelines for claiming organ acquisition costs and received
excess Medicare reimbursement for organ acquisition activities.  The Medical Center claimed $1,150,829 in unallowable
costs and $4,661,194 in unsupported costs.  The estimated Medicare overpayments for the unallowable and unsupported
costs were $625,415 and $1,924,376, respectively.  The unallowable costs were associated with activities that did
not comply with Medicares definition of organ acquisition or were incurred for non-Medicare-certified transplant programs.  The
unsupported costs did not comply with Medicares documentation requirements for reimbursement.  We recognize that
some portion of the unsupported costs may have related to organ acquisition activities and would have been allowable if
properly documented.  We recommended that the Medicare intermediary recover the Medicare overpayments, determine the
allowability of the unsupported costs, review organ acquisition costs claimed for other fiscal years, monitor future claims
and ensure that the Medical Centers revised time-and-effort reporting and accounting systems have been properly implemented.